                    NATIONAL ENDOWMENT FOR THE ARTS
                    OFFICE OF INSPECTOR GENERAL




         LIMITED SCOPE EVALUATION REPORT

                                           ON THE

   VIRGIN ISLANDS COUNCIL ON THE ARTS

                      ST. THOMAS, VIRGIN ISLANDS


                              REPORT NO. LSE-09-01

                                    MARCH 25, 2009




                           REPORT RELEASE RESTRICTION
In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be
posted on the National Endowment for the Arts (NEA) website not later than three (3) days after it is
made publicly available with the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those
intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                 INTRODUCTION


REQUEST

The Deputy Chairman for Management and Budget has requested that we evaluate whether
the Virgin Islands Council on the Arts (Council) can be removed from the working capital
advance method of funding (WCA).

BACKGROUND
The Council is an agency of the Virgin Islands Government within the Department of
Planning and Natural Resources. The Territorial Government funds the Council’s operating
support with federal support coming from the National Endowment for the Arts. The
Council’s mission is to enrich the cultural life of the Virgin Islands through leadership that
preserves, supports, strengthens, and makes accessible, excellence in the arts to all Virgin
Islanders. Offices are maintained on both St. Thomas and St. Croix. On July 31, 1989, the
NEA placed the Council on WCA, while indicating that no documentation would be required
when funds were requested.

SCOPE AND OBJECTIVE

The scope of the evaluation was limited to our review of the Government of the United States
Virgin Islands OMB Circular A-133 Report and Financial Statements, and our discussion
with the Council’s executive director relating to internal controls that were in place at the
Council.

The objective of the evaluation was to determine whether the Council should be removed
from WCA and returned to the regular method of funding.

We did not perform an audit and therefore, we do not offer an opinion on any financial
statements or other financial information. The evaluation was conducted in accordance with
the President’s Council on Integrity and Efficiency Quality Standards for Inspections, as
applicable.

                     RESULTS OF OIG EVALUATION
OMB Circular A-133 Audit Report and Financial Statements. KPMG LLP audited the
Government of the Virgin Islands’ financial statements for the year ended September 30,
2005. Qualified opinions were given on the financial statements of several of the
Government agencies. The auditors also rendered a Report on Compliance with
Requirements Applicable to Each Major Program and on Internal Control over Compliance
in Accordance with OMB Circular A-133 for the year ended September 30, 2005. The A-


                                              1
133 report noted numerous reportable conditions that were also considered to be material
weaknesses. Three of the major findings were as follows:

       The reconciliations of all Government bank accounts as of September 30, 2005, were
       not completed until more than six months after the end of the year;

       In certain instances, the Virgin Islands department managing the federal program
       prepares its federal financial reports primarily based on information from the internal
       accounting records of the federal programs. However, as noted in the report findings,
       on occasion these records do not agree with the accounting records of the
       Government’s accounting system;

       During 2005, as in previous years, the Government experienced delays in its year-end
       closing process and in the preparation of complete and accurate financial statements
       in accordance with U.S. generally accepted accounting principles. During 2005, the
       Government was unable to submit the required Single Audit Reports within the nine
       month time frame established by the Single Audit Act and OMB Circular A-133. The
       Government processes and records numerous year-end closing entries that represent,
       in certain instances, corrections to routine transactions that have occurred throughout
       the year. The nature, timing, and extent of these year-end correcting entries are
       indicative of weaknesses in controls over financial reporting.

We reviewed the auditors’ reports and based on the information provided, we believe that the
Government has a fair amount of work to complete in order to correct its reportable
conditions. However, we did not note any findings that mentioned the Council nor could we
determine whether the findings would have any potential indirect impact on NEA funding.
We also should note that the September 30, 2006 audit and A-133 reports were due by June
30, 2007 and they have not been issued to date.

Evaluation of the Council’s Internal Controls. We conducted a phone discussion with the
Council’s executive director concerning the Council’s internal controls and financial
management operations. It was evident by the answers that the executive director provided
to our questions that the Council has a system in place and an understanding of what controls
are needed. In addition, we discussed the Council’s operations with the NEA’s State &
Regional Specialist, who has worked closely with the Council for many years. The specialist
has visited the Council in the past and had many positive things to say about their operations.
Based on our evaluation of the information provided, we believe that the Council has an
adequate system of internal controls in place. Therefore, we make the following
recommendation.

                              RECOMMENDATION
We recommend that the NEA remove the Council from the working capital advance method
of funding and return the Council to the regular method of funding for all current and future
grants.


                                               2
Other Matters Relating to Personnel Activity Reports. While evaluating internal
controls, we found that the Council was not adequately documenting salary and fringe benefit
costs by maintaining personnel activity reports as required. The NEA’s General Terms and
Conditions for Grants and Cooperative Agreements to Organizations (General Terms) refers
to the Financial Management Guide for State & Local Governments, which NEA provides to
each applicable grantee and states in part:

   For every employee whose salary is charged to an NEA grant, as a whole or in part,
   personnel activity reports must be maintained to account for all compensated time spent on
   all activities.

OMB Circular A-87, Costs Principles for State, Local, and Indian Tribal Governments,
section 8 (h) also provides the following standards:

   Where employees are expected to work solely on a single Federal award or cost objective,
   charges for their salaries and wages will be supported by periodic certifications that the
   employees worked solely on that program for the period covered by the certification...

   Where employees work on multiple activities or cost objectives, a distribution of their
   salaries and wages will be supported by personnel activity reports or equivalent
   documentation…

                              RECOMMENDATION
We recommend that the Council implement procedures to ensure that personnel activity
reports are maintained for any employee whose salary is charged, in whole or in part to a
Federal grant.

EXIT CONFERENCE
An exit conference was held with the Council’s executive director on March 25, 2009. She
acknowledged and concurred with the findings and recommendations.




                                               3
